                                  September 10, 1999

                                  MICHELE C. PURTON
                                  NORTHLAND DISTRICT MANAGER

                                  Subject: 	 Management Advisory Report - Complaint
                                             Resolution Process, Mankato Post Office
                                             (DS-MA-99-006)

                                  This management advisory report summarizes the results of
                                  our review of the allegation of mail delivery problems in
                                  Mankato, Minnesota (Project 99PR005DS000). The report
                                  responds to a request made by Congressman Gil Gutknecht
                                  of Minnesota to review an allegation that the Mankato Post
                                  Office did not always deliver a customer’s mail.

Results in Brief	                 During this review, we confirmed that the customer did not
                                  receive mail during the week of November 11, 1998. In
                                  addition, we determined that Mankato postal officials did not
                                  adequately respond to the customer’s complaint regarding
                                  non-receipt of mail. Further, Mankato postal officials did not
                                  properly record and process the customer’s complaint as
                                  required by postal policy.

                                  We suggest that the Northland District Manager direct
                                  Mankato Post Office management to properly record and
                                  process all future complaints.

Background 	                      USPS management recognizes that prompt response to
                                  and viable resolution of customer complaints positively
                                  impact customer satisfaction. As such, postal employees
                                  are to ensure timely, customer-friendly, and professional
                                  complaint resolution.

                                  The complaint resolution process1 begins when USPS
                                  officials receive a complaint from a business or residential
                                  customer. Postal personnel are only required to document

1
    Management Instruction, PO-250-93-2, Complaint Resolution and Proper Use of the Consumer Service Card
Complaint Resolution Process                                                        DS-MA-99-006
 Mankato Post Office


                               the complaint in the customer complaint control log, if
                               resolved immediately. However, if the complaint cannot be
                               resolved immediately, the customer or postal employee
                               completes a four-part form, Consumer Service Card (PS
                               Form 4314). This form should be completed at the time of
                               the initial complaint. When follow-up action must be taken
                               or the comment or complaint must be referred elsewhere for
                               action or resolution, a postal employee is responsible for
                               completing the form.

                               Once the complaint form is completed, local post office
                               personnel must enter the information in the customer
                               Complaint Control Log using the Consumer Service Card
                               number as the control number. On the same date the form
                               is completed, local post office personnel must send copy 2
                               of the form to the St. Louis Consumer Service Card Unit.
                               Within 24 hours of receiving the complaint, the Postal
                               Service must acknowledge the complaint by preprinted
                               postcard, letter, telephone call, or personal contact with the
                               customer.

                               Local post office personnel must investigate the complaint
                               and provide the customer a final response within 14 days.
                               The results, including the customer contact date, the USPS
                               representative making contact, and a brief description of the
                               action taken, are documented on copy 3 of the complaint
                               form. Copy 3 of the form is then sent immediately to the
                               Consumer Service Card Unit. Copy 4 is filed locally, along
                               with any letters or attachments. The local post office
                               personnel must enter the date the complaint is closed in the
                               customer complaint control log, finalizing the complaint
                               resolution process. Following this process ensures effective
                               complaint resolution accountability and allows for correction
                               of any service deficiencies that may exist.

Objective, Scope and           Our objective was to review the facts surrounding an
Methodology                    allegation that the Mankato Post Office did not always
                               deliver a customer’s mail. To accomplish our objective, we
                               interviewed postal officials and the complainant regarding
                               the allegation. We evaluated whether the Mankato Post
                               Office officials followed proper policy and procedures for
                               recording and processing this customer’s complaint. In
                               performing our review, we also reviewed USPS policies and
                               other related documents. The review was conducted




                                                   2
                                      Restricted Information
Complaint Resolution Process                                                       DS-MA-99-006
 Mankato Post Office


                               between March and August 1999, in accordance with the
                               President’s Council on Integrity and Efficiency, Quality
                               Standards for Inspection.

Observation                    We reviewed the facts surrounding the alleged mail delivery
                               problem and determined that the customer had not received
                               mail during the week of November 11, 1998. Due to
                               conflicting information from the complainant and postal
                               officials, we could not determine a specific cause for the
                               mail delivery problem. However, during our review, we
                               found that Mankato postal management did not properly
                               record and process the customer’s complaint. Our
                               interviews with the complainant and postal officials revealed
                               that the customer voiced concerns about mail delivery,
                               although no formal complaint was documented.
                               Specifically, the supervisor of the delivery route in question
                               acknowledged at least one conversation with the
                               complainant concerning non-delivery of mail. In addition,
                               the Postmaster spoke with the complainant and did
                               investigate the customer’s complaint. However, neither the
                               supervisor nor the Postmaster considered the complaint
                               valid and, therefore, did not record the complaint on a
                               Consumer Service Card as required. As a result, postal
                               officials did not establish effective complaint resolution
                               accountability and did not correct any service deficiencies
                               that may have potentially existed for this particular
                               customer.

Suggestion 	                   We suggest that the District Manager direct Mankato Post
                               Office management to properly record and process all future
                               complaints.

Summary of                     The Northland Senior Manager, Post Office Operations
Management’s                   concurred with our observation and suggestion and stated
Comments                       that actions had been taken to require Mankato Postal
                               employees to complete PS Form 4314 for all complaints. In
                               addition, employees are required to document customer
                               complaints using a Complaint Control Log: if the complaint
                               cannot be resolved immediately; when follow-up action must
                               be taken on the complaint; or the complaint must be
                               referred somewhere else for action or resolution. We have
                               summarized management’s comments in the report and
                               included the full text in the appendix.




                                                   3
                                      Restricted Information
Complaint Resolution Process                                                     DS-MA-99-006
 Mankato Post Office


Evaluation of                  Management’s comments are responsive to our suggestion
Management’s                   and the actions taken to document all complaints will ensure
Comments                       proper recording and processing of customer complaints.

                               We appreciate the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact Bennie Cruz, Director, Delivery, or me at
                               (703) 248-2300.


                                    //Signed//
                               Richard F. Chambers
                               Assistant Inspector General
                                for Performance

                               cc:	 William McComb
                                    Alan B. Kiel
                                    John R. Gunnels




                                                   4
                                      Restricted Information
Complaint Resolution Process                            DS-MA-99-006
 Mankato Post Office




Major Contributors to
the Report:




                                            5
                               Restricted Information
Complaint Resolution Process                            DS-MA-99-006
 Mankato Post Office




                                            6              Appendix
                               Restricted Information
Complaint Resolution Process                            DS-MA-99-006
 Mankato Post Office




                                            7              Appendix
                               Restricted Information
Complaint Resolution Process                            DS-MA-99-006
 Mankato Post Office




                                            8              Appendix
                               Restricted Information
